<html>
<title> - THE DAYTON LEGACY AND THE FUTURE OF BOSNIA AND THE WESTERN BALKANS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   THE DAYTON LEGACY AND THE FUTURE OF BOSNIA AND THE WESTERN BALKANS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

                           Serial No. 115-148

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-816PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>                      
                      
                      

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
F. JAMES SENSENBRENNER, Jr.,         WILLIAM R. KEATING, Massachusetts
    Wisconsin                        DAVID N. CICILLINE, Rhode Island
FRANCIS ROONEY, Florida              ROBIN L. KELLY, Illinois
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Matthew Palmer, Acting Deputy Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     4
Sasha Toperich, Ph.D., senior fellow and director of the 
  Mediterranean Basin, Middle East, and Gulf Initiative, Center 
  for Transatlantic Relations, The Paul H. Nitze School of 
  Advanced International Studies, The Johns Hopkins University...    19
Mr. Philippe Leroux-Martin, director, Rule of Law, Justice, and 
  Security, U.S. Institute of Peace..............................    26
Mrs. Shirley Cloyes DioGuardi, Balkan Affairs adviser, Albanian 
  American Civic League..........................................    36
Mr. Kurt Bassuener, co-founder and senior associate, 
  Democratization Policy Council.................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Matthew Palmer: Prepared statement...........................     6
Sasha Toperich, Ph.D.: Prepared statement........................    21
Mr. Philippe Leroux-Martin: Prepared statement...................    28
Mrs. Shirley Cloyes DioGuardi: Prepared statement................    39
Mr. Kurt Bassuener: Prepared statement...........................    45

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats:
  ``Don't wait for the western Balkans to blow up again. The U.S. 
    and the E.U. must act,'' by Wesley K. Clark..................    68
  Statement by Dr. Edward S. Yambrusic...........................    71
  Letter from Amnesty International, April 18, 2018..............    74
Mrs. Shirley Cloyes DioGuardi: Macedonia-Albanian Platform.......    80
Mr. Kurt Bassuener:
  Letter to House of Lords International Relations Committee, 
    September 15, 2017...........................................    83
  ``A Feature, Not a Bug,'' Bosnia Daily, December 5, 2017.......    90
Internet link and list of additional documents submitted for the 
  record.........................................................    92
The Honorable Robin L. Kelly, a Representative in Congress from 
  the State of Illinois: Question for Mr. Matthew Palmer 
  submitted for the record.......................................    93

 
   THE DAYTON LEGACY AND THE FUTURE OF BOSNIA AND THE WESTERN BALKANS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I hereby call this hearing to order. Good 
afternoon and welcome to this hearing on the legacy of the 
Dayton Agreement and political situation in Bosnia and what 
portends to be for the Western Balkans. I suspect today's topic 
may be new to some of my younger colleagues. The horrific 
conflict of the 1990s and its underlying causes is something 
many of us hope had been resolved a long time ago, but here we 
are.
    The issue at hand stems from the fundamental compromise 
within the 1995 Dayton Agreement. To end 3 years of war and 
genocide, Bosnia's democratic development and territorial 
integrity was balanced against the need to accommodate ethnic 
interests. For peace, this trade-off made sense. The time has 
come, however, not just for stability but for political reform 
as well, political reform that allows Bosnia to have a fully 
functional government, one that meets democratic standards.
    Based on the Dayton Agreement, Bosnia is divided into two 
political entities, the Federation of Bosnia-Herzegovina, which 
in and of itself has been divided into ten cantons, and the 
Republic of Srpska--okay. I want to make sure I am pronouncing 
it Srpska. The three major ethnic communities, Bosniak, Serb, 
and Croats share power. Bosnia-Herzegovina is headed at the 
state level, for example, by a tripartite presidency, one for 
each of the ethnic communities. It is a complex and overlapping 
system where positions are allowed and allotted by affiliation 
of one of the three ethnic groups, sometimes through the 
exclusion of citizens who do not belong to any of the ethnic 
groups.
    While this system secured in the group rights of one 
warring party for two decades of democratic change has resulted 
in a situation, however, where equal representation of an 
individual citizen is viewed as a threat to protecting the 
political equality between the ethnic groups, Bosniaks in the 
Federation, for example, may now make up 70 percent of that 
population. The electoral law set up a scenario, however, where 
a representative of one community may be duly elected, but an 
ethnicity other than his own.
    So the Constitutional Court of Bosnia found that this 
violated the equality between the ethnic communities set forth 
in the constitution and undercut key provisions of the 
electoral law. Because the political parties were unable to 
find a compromise solution to this within the required time 
frame, Bosnia is approaching a general election this October 
without election law in place. This has created a potential for 
a political crisis and hopefully that for the loss of life and 
conflict.
    The current set of ethnocentric political parties and 
entrenched elites have regrettably been unable or unwilling to 
find a solution for the good of the country and its people. 
Given our country's history in involvement in the region and 
particularly our central role in brokering the Dayton 
Agreement, the United States has an ongoing responsibility to 
help Bosnians find a mutually agreeable and lasting solution. 
We cannot, however, just sit on the sidelines and except the 
Europeans and the European Union to solve this. That is 
something we should have learned by now. Experience has shown 
us Europe often lacks the political resolve to lead, and active 
engagement now will lessen the likelihood of more challenging 
intervention later on.
    We have two panels for today's hearing and first we will 
hear from our State Department and then a panel of private 
witnesses. So I thank all of you for appearing today and now I 
turn to my ranking member, Mr. Meeks, for his opening 
statement.
    Mr. Meeks. Thank you, Chairman Rohrabacher, for calling 
this hearing and continuing to focus our subcommittee's 
attentions on the Balkans. I am particularly excited about 
shining a helpful light on Bosnia where we are witnessing a 
country amble toward a constitutional crisis barring a 
solution. Additionally, I am grateful to have a veteran of our 
State Department here to testify. I always salute those in the 
State Department and the great work that they do for our 
country and they think sometimes it goes unrecognized, but I 
want to thank you for what you do.
    I look forward to hearing about your recent trip to the 
region and key takeaways on the broader issues. It was an 
understanding by many here in Congress that the region was 
moving steadily toward the West and closer to the institutions 
that are markers for our democratic principles, NATO and the 
EU. In fact, just yesterday, the Commission backed EU accession 
talks for Albania and Macedonia. This is a very encouraging 
announcement, but the follow-through is what is tough.
    Whereas, there was and is momentum in this direction, the 
progress has slowed and leaders are looking at playing the West 
off of Russia. Populations aren't as convinced of the benefits 
of NATO or EU membership as they once was and outside actors, 
namely Turkey and Russia, are increasingly interested and 
willing to insert themselves in a detrimental manner, thereby 
jeopardizing the investments that the United States has made 
toward the democratic peace.
    The United States who helped broker that peace is nervously 
turning inwards, unfortunately, and the leaders in the region, 
however, underestimate the extent to which the United States' 
institutions and people are committed to the goals of 
individual rights, democracy, and peace. By focusing on Bosnia 
and Herzegovina----
    Mr. Rohrabacher. You got it.
    Mr. Meeks [continuing]. Electoral framework and 
constitutions, Congress can help avert a crisis and keep 
perhaps and even use this opportunity to reinvigorate the push 
to a rules-based political system in Bosnia. The way it stands 
now and without sufficient attention from the West, the Bosnian 
elite are allowed to continue to drift toward this crisis. 
Worse, a haphazard fix to the legal gap can be used to cement 
the divide between the political economic elites and the 
constituent peoples.
    The conundrum needs to be addressed. However, the malign 
actors outside of Bosnia and in the neighborhood are hardly 
waiting until the October elections to act. In the United 
States we sometimes want simple answers to very complex 
situations. We start afresh, move to new cities, go bankrupt, 
and try again. We sometimes misunderstand the role of history 
in much older cultures than ours. In Bosnia, it is impossible 
to separate the past from the present and the future.
    The brave people, all constituent peoples, understand what 
risk there is to this political game of chicken. There are the 
seeds that need to be tended to and that need to be the vital 
force of the political solution. I believe there is a role for 
the United States here, first and foremost, in taking up 
responsibility for the consequences of Dayton and for our 
strategic interest in the region. We must honestly rethink the 
strictures of the Accords and how an immediate fix can lead to 
better governance in the region. And we can only be successful 
here, indeed, the region can only be successful if we do this 
in concert with our allies.
    The EU and even some of its larger member states, 
significantly the U.K., have shown renewed interest in the 
region. As the co-chair of the EU Caucus and Ranking Member on 
the European Subcommittee, I want to harness that positive 
energy and use it to advance our common interests starting in 
Bosnia and spreading it throughout the region.
    And again I thank all who are going to testify and thank 
you, Mr. Chairman, for having this hearing today.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    Our first witness of the day is Matt Palmer, a senior 
Foreign Service Officer and currently Acting Deputy Assistant 
Secretary of State for Central Europe and the Western Balkans. 
He has completed tours in Serbia, Cyprus, and has worked for 
the National Security Council at the White House.
    Let me just note I am deeply concerned along with a lot of 
other people that we just have acting deputy assistant 
secretaries of State rather than this administration having 
appointed permanent people to those positions, but we are very 
happy to have you with us. We know you are a pro.
    So go right ahead. You have about 5 minutes and then we 
will open it to questions.

   STATEMENT OF MR. MATTHEW PALMER, ACTING DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Palmer. Chairman Rohrabacher, Ranking Member Meeks, and 
members of the committee, thank you for inviting me to appear 
before you today to discuss the challenges that we see in 
Bosnia and Herzegovina and our strategy for addressing them. I 
would like to express my sincere gratitude to the House of 
Representatives and this committee for your interest in Bosnia 
and Herzegovina.
    I recently returned from a trip to the region and I can 
tell that the people of Bosnia and Herzegovina share our desire 
to see their country integrated with the West. We have a long 
history of good relations with Bosnia and Herzegovina. It is a 
member of the Global Coalition to Defeat Isis, a solid partner 
on counterterrorism and a proactive counterpart in efforts to 
limit the spread of violent extremism.
    The country is, however, facing its most serious challenges 
since the 1990s, which left unchecked could have serious 
consequences for Western Balkans, Europe, and the United 
States. There is a real risk that national elections in Bosnia 
and Herzegovina this fall could fail to produce a government 
unless political leaders can reach agreement on reforms to the 
country's electoral law. Without a government, the country 
could face a prolonged post-election crisis during which 
progress would stall on pressing objectives such as tackling 
corruption, strengthening rule of law, countering violent 
extremism, and furthering the country's Euro-Atlantic 
integration. Basic governmental responsibilities such as 
passing a budget would become impossible. Most importantly, 
such internal problems in Bosnia and Herzegovina open the door 
to malign actors such as Russia which is intent on sowing chaos 
in the region and thwarting Bosnia's Euro-Atlantic future.
    To ensure that election results can be implemented, Bosnia 
and Herzegovina's political leaders must find compromises that 
balance the collective rights of the country's three 
constituent peoples, Bosniaks, Croats, and Serbs, with the 
individual rights of all citizens both of which are enshrined 
in the constitution. The tension between these principals has 
been reflected in a number of cases filed with the 
Constitutional Court of Bosnia and Herzegovina and the European 
Court of Human Rights. Current electoral reform efforts are 
aimed at finding balanced solutions consistent with the 
decisions of these courts.
    The most pressing reform issue concerns elections to the 
upper chamber of Parliament known as the House of Peoples of 
the Federation of Bosnia and Herzegovina. In December 2016, the 
Constitutional Court ruled that the electoral mechanism to 
establish the House of Peoples was inconsistent with the 
constitution and gave the state Parliament 6 months to fix the 
election law. When Parliament failed to do so, the Court 
invalidated these sections of the law and in doing so 
effectively eliminated the legal basis for establishing the 
House of Peoples. Without a fully constituted House of Peoples, 
it will be impossible to form either the Federation government 
or the state level House of Peoples, the upper House of the 
Parliamentary Assembly.
    The Constitutional Court of Bosnia and Herzegovina and the 
European Court of Human Rights have also ruled in numerous 
cases that constitutional provisions governing elections to the 
presidency are discriminatory. Under the current setup, anyone 
who is not from one of the three major ethnic groups is 
ineligible to run for President. Fixing this would require 
amending the state constitution, a time-consuming task that 
will require significant political will. We have seen no 
proposal that satisfactorily addresses this issue. Because of 
time constraints, we are urging the political parties to 
prioritize reforms related to the House of Peoples and hold off 
further consideration of the presidency until after the October 
elections.
    The State Department is engaged at all levels in support of 
efforts to reform the electoral process. Over the last year, we 
have met regularly with the leaders of key political parties to 
encourage them to work together toward consensus. Ambassador 
Maureen Cormack and her staff at the U.S. Embassy in Sarajevo 
have led an electoral reform facilitation process since last 
October, bringing parties together to negotiate a mutually 
agreeable solution. I had the opportunity to meet with all 
three members of the presidency while in Sarajevo earlier this 
month as well as with other leaders from across the political 
spectrum.
    We have also engaged international partners who support 
Bosnia and Herzegovina's Euro-Atlantic ambitions to discuss how 
to best advance electoral reform and promote rule of law. In 
addition to helping political leaders agree on electoral 
reforms, we are taking steps to shore up rule of law and stamp 
out corruption by pressing the government to accelerate reforms 
and providing targeted assistance. We are also urging political 
leaders and criminal justice institutions to demonstrate the 
political will and courage necessary to investigate, prosecute, 
and punish corrupt actors and the organized crime groups they 
protect far more aggressively.
    We are working to spur economic growth by improving the 
business climate. A stable, prosperous Bosnia and Herzegovina 
that is integrated within the Western community of nations and 
is a strong partner on counterterrorism helps make America 
safer, is a better place for U.S. business, and will bolster 
peace, stability, and prosperity in the region. These goals are 
ambitious but we are committed to seeing a democratic, 
prosperous Bosnia and Herzegovina closely partnered with the 
United States in advancing our common interests.
    Thank you very much and I would be happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Palmer follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Rohrabacher. Well, thank you very much for that 
testimony today. What are the chances, where do you have us, 
are we going to avert a major crisis or is it a coin flip? Is 
it 50/50? Is it hey, we have it all straightened out, we are 
just now doing things underneath the radar screen?
    Mr. Palmer. I don't want to underestimate the challenge, 
Mr. Chairman. This is a difficult set of negotiations that are 
ongoing between and amongst the parties in Bosnia and 
Herzegovina. I am reluctant to put a number on it.
    Mr. Rohrabacher. Well, let me put it this way. If you are 
over 50 percent you are optimistic, right? If you are under 50 
percent you are pessimistic?
    Mr. Palmer. Yes.
    Mr. Rohrabacher. What are you?
    Mr. Palmer. For me, Mr. Chairman, I am committed to working 
as hard as we can to help these guys get across the finish 
line.
    Mr. Rohrabacher. Oh, that is a good answer there. That is 
political----
    Mr. Palmer. In that case, sir, I am going to stop right 
there.
    Mr. Rohrabacher. All right. Do you really think that it is 
possible for them to give up this sort of ethnic organizational 
structure that we brought in, everybody brought in as part of 
the way to end the actual killing that was going on? Can we now 
drift away from that and is that possible?
    Mr. Palmer. Chairman, I don't think that they need to give 
it up as such and I don't think that is what anybody is looking 
for out of this process or, really, what anybody thinks is 
realistic. The goal is to adjust and amend the electoral law in 
such a way to ensure that the balance between the collective 
rights of the constituent peoples, Bosniaks, Croats, and Serbs, 
and the rights of individual citizens of Bosnia, not all of 
whom belong to one of these three ethnic groups----
    Mr. Rohrabacher. Sure.
    Mr. Palmer [continuing]. That that balance is struck 
appropriately in a manner that is consistent with the Bosnian 
Constitution, consistent with international norms, and with 
European law.
    Mr. Rohrabacher. Well, you know, something that has to be 
fine-tuned that much, it seems to me that it is very hard for 
us to fine tune things overseas. America is usually coming with 
a sledgehammer which is what we did during the Balkan War last 
time. We came in with a sledgehammer. We were bombing Belgrade 
for Pete's sakes. And I think that our heavy hand in that 
region helped end that mass of killing and I think we can be 
proud that we stood with our allies in Western Europe and 
accomplished that in saving a lot of lives. I don't know from 
what you are saying that what we are looking at right now 
whether or not we came up with a solution or just a stopgap 
proposal that people are trying to implement until the fighting 
starts again.
    Let me ask you this. If fighting does break out in Bosnia, 
let's say, for example, would that spill over into the rest of 
the Balkans or would you think that would be able to be 
contained right in Bosnia?
    Mr. Palmer. That is a complex hypothetical question, Mr. 
Chairman, and I am----
    Mr. Rohrabacher. Of course it is.
    Mr. Palmer [continuing]. Reluctant to engage in 
hypotheticals. And at this point we see no immediate risk of 
violence in Bosnia.
    Mr. Rohrabacher. Okay.
    Mr. Palmer. But I mean certainly our experience in the past 
has been that violence in any place in the Balkans has an 
immediate and negative effect on stability within its neighbors 
across the region. It would be a profound concern. Were that to 
be the case in Bosnia, I think that the risk of spillover of 
that violence into undermining overall regional stability would 
be significant.
    Mr. Rohrabacher. Well, sure. Yes, eventually what you have 
is, you know, your Croatians, you have your Serbians, and you 
have of course your Albanians there, and these people have, 
they are different religions. They have a huge history of 
conflict over centuries and I think that it would be naive to 
think that is going to be easy for us to just sort of hold 
hands and come up with a compromise that will prevent them to 
not kill each other. But we will see.
    Could you tell me--and by the way, again I think we need 
to, as Congressman Meeks mentioned, we need to be proud of you 
folks who have been doing the bidding of the United States of 
America to try to be a peacekeeper in that area. There is 
nothing, I think, more honorable than being peacekeepers and 
peacemakers.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Rohrabacher. But there is the yin and the yang. Are 
there negative forces? What about that we have the Chinese are 
now recognizable players in the area. We have the Turks and the 
Turks seem to be going in exactly the wrong direction. And now 
we have the Russians, okay. If you could like go into it very 
quickly, are these players being a positive influence or is 
this a drag? What is your analysis of these various things?
    But also, by the way, we have to recognize that, you know, 
radical Islam is still around and that is something people are 
worried about. So what about those outside factors?
    Mr. Palmer. Absolutely, Mr. Chairman, it is something we 
watch very closely. The outside actor who is of particular 
concern to us at this point in time is the Russian Federation 
and their goals. Not just in Bosnia and Herzegovina, but across 
the region are fundamentally at odds with our goals. We are 
working to help the countries of the Western Balkans integrate 
into European and Euro-Atlantic institutions. The Russians are 
working assiduously to sow distrust and discord. This is of 
concern to us.
    It is a concern to us what it is that is happening at the 
state to state level and it is also of concern to us in terms 
of what is happening in terms of Russian disinformation, 
Russian support for groups in Bosnia and Herzegovina that are 
working to tear apart the social fabric of Bosnia and 
Herzegovina.
    Mr. Rohrabacher. So you think they are being, the Russians 
are playing a role of provocateur?
    Mr. Palmer. I think that is a perfectly reasonable 
description, Mr. Chairman.
    Mr. Rohrabacher. Shocking, shocking. We will go back to 
maybe a second round with this witness.
    And, Mr. Meeks?
    Mr. Meeks. Thank you. I am going to drop the Deputy 
Assistant Secretary. Let me ask this question.
    Mr. Palmer. It is a mouthful.
    Mr. Meeks. There are certain Bosnian Croat political 
leaders, particularly those from the HDZ political party, who 
claim to speak on behalf of the entire Bosnian Croat community. 
Is that community really united in its views? I mean they are 
saying it, but is it really united in its views and do those 
living in Central Bosnia share the aims and the goals of those 
living in--I can't get this out of mouth----
    Mr. Rohrabacher. Herzegovina.
    Mr. Meeks [continuing]. Herzegovina?
    Mr. Palmer. That is a complex question, Ranking Member 
Meeks. I would say that, you know, there is no group anywhere 
in the Balkans that is entirely homogenous in terms of their 
goals and aspirations, their political orientation, their 
understanding of their own self-interests so all of these 
communities are complex. We speak in shorthand and the 
shorthand mantra that we have for Bosnia is one country, two 
entities, three constituent peoples. I had that tattooed 
somewhere on the back of my hand so I don't forget.
    But within those constituent communities you will find a 
wide spectrum of opinions. However, we do have duly elected 
leaders from these communities. We have political parties that 
through a competitive political process have come to the fore 
to represent the interests of their communities. And what we 
are trying to do at this point is to work together with these 
representatives of the constituent peoples in Bosnia and 
Herzegovina to try and find a path forward toward mutual 
agreement and that is our goal. We don't support any particular 
resolution, any particular set of electoral reforms. We do want 
to see electoral reforms that are robust, that are durable, 
that are consistent with Bosnia's constitutions and 
international norms and the rulings of the European courts 
given Bosnia's aspirations to eventually become a member of the 
European Union.
    Mr. Meeks. And let me ask this question which is 
particularly sensitive and enlightening to me. Given the 
history of us here even in the United States in trying to, when 
you have people of different ethnicities trying to live 
together living in the same communities--I am one of the 
product where one way we tried to overcome that and we are 
still trying to do it to a degree in the United States is 
integrate schools so that people are going to school together. 
They go in, they learn about one another, they understand that, 
you know, they have different ethnicities but they still have 
the same kind of blood and organs and everything, they are 
human beings.
    What are we doing? Are we doing anything to try to help 
along to end segregation among students on ethnic lines and 
having them going to school together and things of that nature?
    Mr. Palmer. Yes, Mr. Meeks. We are working through a 
variety of programs and assistance efforts and activities to 
promote tolerance, to create opportunities in particular for 
young people to interact, to ensure that the curriculums of the 
schools are to the extent possible stripped of the kinds of 
heated rhetoric that can pit neighbor against neighbor, 
something that we saw on too regular of a basis in the Balkans 
in the 1990s.
    This is a challenging environment for this. The traditions 
in the Balkans, the political traditions are different than 
they are in the United States. We have a tradition of 
prioritizing the rights of the individual. In the Balkans the 
rights of individuals are also significant, but they also do 
have a degree of comfort and experience with collective rights, 
group rights that are a little bit alien to American political 
culture. And so what we are trying to help them do is to find a 
balance between this concept of collective rights, the rights 
of a community, the rights of a constituent people which are 
enshrined in the Dayton constitution, the Constitution of 
Bosnia and Herzegovina, to balance those collective rights 
against the rights of the individual and find a way for the 
society to work and function as smoothly and effectively as it 
can. It is a different tradition than the American tradition, 
but it is one that we feel can be entirely consistent with a 
democratic future for Bosnia.
    Mr. Meeks. Thank you. I know he says we are going to 
another round so, all right.
    Mr. Rohrabacher. Mr. Perry?
    Mr. Perry. First, Mr. Chairman, thank you and Ranking 
Member Meeks for allowing me unanimous consent to come in and 
sit in on the meeting. Secretary, good to see you. Last month I 
sent a letter to the Assistant Secretary Mitchell. Oh, and 
dobar dan to anybody in the crowd here.
    Regarding the issue, the United States has significant 
investment and it has been 25, 26 years on now, and I think 
this is systematic of the Dayton Accord, which in my mind 
wasn't really supposed to last, you know, more than 20 years. I 
mean it was up to the country to come up with changes that more 
suited their circumstances and let the people and those 
citizens decide that. And I did get a response to my inquiry 
from Ms. Waters, and I suppose she was as descriptive as she 
could be, but it is pretty broad ranging and so a couple 
specific questions.
    If the three parties can't come together with some 
agreement what are the range of options? Can it be delayed? Is 
that realistic? Can you put a--and I understand you are not 
making these decisions, but you must be hearing the discussions 
and things are looming and, you know, you just run out of time 
to implement some of this stuff. And as I recall, I mean when I 
was there we had an election and 2,500 parties, right, 
individual political parties or something along that line. If 
you imagine how unpleasant these elections here in the United 
States, imagine that there.
    So, I am wondering what the other options are. I am also 
wondering about capabilities. Since, you know, a lot of the 
weapons were taken out of the country and so on and so forth, 
what are the capabilities of the different factions, you know, 
other than sowing discord, et cetera, or Russia and Turkey 
providing anything hard, so to speak, that could be used or, 
you know, is that available?
    And then, finally, are there significant dates surrounding 
the election? Because I can't remember all this stuff, but it 
seems as I recall that in this country they seem to memorialize 
certain dates that are associated with infractions going to the 
past. And so if there are certain dates that come up around 
election time where certain infractions of the past occurred 
that might be an opportunity, unfortunately, to reignite 
tensions or sore feelings.
    And so I just--and what is--I know I am giving you a 
laundry list here. Where does this issue fall on the State 
Department's priority list for Bosnia, because as Mr. Meeks 
talked about one school, two different, or two schools under 
one roof, I mean I am sure that is a priority, corruption 
remains a priority. There is a lot of priorities. But I am 
wondering where this falls in the priority for State as far as 
you know.
    Mr. Palmer. Thank you for those questions, Mr. Perry. Let's 
begin at the top, I suppose, with this issue of what the 
alternatives are. And I would put to you, sir, that there is 
really no point where we stop working these issues. That at no 
point are we going to wash our hands of Bosnia and Herzegovina 
or are we going to say that this problem is simply too hard and 
we surrender.
    Mr. Perry. I am not implying that, but I am wondering if at 
some point where this is always an ongoing issue of 
constitutional provisions and the governance and so on and so 
forth but this I think at some point reaches crisis level. And 
I don't know at what point State Department considers it such, 
but I sent a letter last month so obviously I am already there.
    Mr. Palmer. The crisis point that we are looking at, Mr. 
Perry, is the elections in the fall in October and the risk 
that these elections fail in the baseline responsibility of an 
election which is to produce a government. And if Bosnia 
doesn't have a government, you know, they can stumble along for 
some time with people in acting capacities with technical 
mandates. There is experience with this in that part of the 
world, but there comes a point where the failure to adopt a 
budget means that they don't have the money available to make 
the necessary expenditures and when basic services, and when 
you stop paying war veterans, when you stop providing pensions, 
when you stop collecting the trash, that is when people go out 
in the streets and that produces instability that is visible 
and dangerous to all.
    So we would like to avoid getting to that point and the 
negotiations that we are supporting in facilitating in Sarajevo 
right now are aimed at helping the parties reach an agreement 
that will prevent that crisis. I can't tell you exactly when 
that will happen.
    Mr. Perry. I mean I appreciate that, but yet I haven't 
heard any other option other than we hope they get to a 
consensus which is--look, we are all hoping. I think everybody 
in the room is interested in that. But if they don't, what is 
the reality here?
    Mr. Palmer. Sure. I think the answer to that, Mr. Perry, 
would be if they don't and they get to October and there is no 
government and you have this incipient crisis that you try 
again, right, and you try again with the pressures of the 
budget breathing down your neck. And when there is pressure on 
the political leaders to avert the kind of crisis, the kind of 
civil unrest----
    Mr. Perry. I know I have asked you a lot of questions and I 
am way over. So we will just continue the conversation, I hope.
    Mr. Rohrabacher. All right. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing. I am looking at this political system of Bosnia-
Herzegovina. I can't make heads or tails of it. It looks like 
the NCAA tournament bracketing.
    Mr. Palmer. Yes, it is pretty complicated, sir.
    Mr. Sires. I mean, but can you tell me if the Dayton Accord 
needs to be reformed?
    Mr. Palmer. Well, I think that what we are talking about 
here, Mr. Sires, is in fact reforming the Dayton Accords at the 
micro level. We are trying to make adjustments to the system 
that Dayton established to help the Bosnian political system 
fit more smoothly into the international system to accommodate 
international and European norms.
    One of the big things that needs to get fixed in Bosnia is 
the method of selecting the presidency. The problem with that I 
think is pretty clear. If you are not a Serb and you are not a 
Croat or you are not a Bosniak, you cannot run for the 
presidency of Bosnia and Herzegovina. There is something 
fundamentally wrong with that and that shortcoming has been 
recognized in a number of decisions by the European courts 
fixing that, amending that. Finding a way to resolve that 
conundrum will require changing the constitution that is 
changing Dayton because the constitution is part of Dayton.
    So yes, there will need to be changes. I would not argue 
that it is necessary at this point to consider wholesale 
changes. I wouldn't throw the whole thing out and start over 
again, but to work in making the immediate amendments and fixes 
and reforms that are necessary to make that spaghetti-gram more 
functional.
    Mr. Sires. And what are the prospects of joining the EU?
    Mr. Palmer. Long term? Long term there is a process. It is 
going to take time. Bosnia has a lot of reforms that it needs 
to implement, reforms related to governance, reforms related to 
rule of law, reforms related to transparency, accountability, 
functionality; so it is our hope and expectation that the 
process of aspiring to be a member of the European Union, 
opening the negotiations, opening and closing the various 
chapters that are part of that accession process that that will 
help Bosnia make the reforms necessary to be more functional, 
to be more effective, to be more viable as a unitary state.
    Mr. Sires. In looking at this chart, the Central Bank, 
would that be the Treasury comparable to ours?
    Mr. Palmer. No, there is a Central Bank separate from the 
Ministry of Finance. So I think it is probably closer to the 
Federal Reserve.
    Mr. Sires. Tough to make this out here.
    Mr. Palmer. Bigger type helps.
    Mr. Sires. Okay, thank you.
    Mr. Rohrabacher. We will have time for a couple minutes 
more from each of the members. Let me just note that if this 
doesn't come about any faster than what we have seen in the 
last 25 years in terms of reaching compromises, it seems that 
your goal, that the goal you are outlining is that we are going 
to get everybody ready and we are going to put them into the EU 
and they are going to be in the EU. I don't think the EU is 
going to be around that long. So, I mean I hate to tell you 
this, but I will give you the honest assessment from here. I 
think the EU is on the way out.
    And, however, I do think that it is possible that a new 
type of coalition is forming in Europe that will include, could 
go all the way down into the Balkans from what we consider 
Central and what, Eastern Europe now with Poland and Austria, 
Czech Republic, Hungary, maybe Romania and Bulgaria, maybe 
Serbia, et cetera. That may be what you end up with when all is 
said and done. I don't know.
    Do these people--let me ask you this. I am not an expert, 
although I have been there thanks to Joe and Shirley actually 
took me there once, but do Serbs and Croatians and the 
Albanians and like with the Kosovo, do they speak different 
languages? Can they talk to one another?
    Mr. Palmer. The issue of language is intensely political in 
the Balkans, so Croats will tell you they speak Croatian. 
Bosniaks will tell you they speak Bosnian. Serbs speak Serbian. 
I understand them all. So they can speak to each other.
    Mr. Rohrabacher. All right.
    Mr. Palmer. There is different words, there is different 
accents, but they are mutually intelligible for sure. Albanians 
are a different language all together. So it is not a Slavic 
language, it is unrelated to any of the other languages.
    Mr. Rohrabacher. And what percentage of the Bosnian 
population speaks that language?
    Mr. Palmer. Of the Bosnian population that speaks Albanian?
    Mr. Rohrabacher. Yes, do they?
    Mr. Palmer. It would be under one, I am pretty sure.
    Mr. Rohrabacher. So that is small.
    Mr. Palmer. Very small minority.
    Mr. Rohrabacher. How many speak Croatian and is that 
different than Serbian?
    Mr. Palmer. They are mutually intelligible, Mr. Chairman, 
so I don't know that we have a language count. I think if you 
were to do a census, and again the issue with the census is 
pretty politicized too, but the numbers who identify as Croat 
could be taken as a placeholder for the numbers who speak 
Croatian.
    Mr. Rohrabacher. Is there an ethnic divide here as well, 
meaning can someone see someone walking down the street and say 
ah-ha that is a Serbian or ah-ha that is a Bosnian or whatever?
    Mr. Palmer. Almost certainly not, Mr. Chairman. There might 
be some differences of dress particularly for religious 
Bosniaks that would be identifiable, but in general, no. You 
can't just look at somebody and know what they are.
    Mr. Rohrabacher. It sounds like a hell of a project to try 
to get them to work together, seeing that if we can't see the 
differences but they feel it so strongly and that is 
fascinating. Well, thank you for the insights you have given us 
today. We of course wish you success.
    And Mr. Meeks, do you have any other questions?
    Mr. Meeks. Well, I will just kind of ask one quick one. Do 
Serbia----
    [Audio malfunction in hearing room.]
    Mr. Palmer. Absolutely, Ranking Member Meeks, they do. I 
have spoken about this issue at length with senior decision 
makers in both Zagreb and Belgrade and both governments 
understand that they would stand to lose significantly from 
instability in Bosnia. That the challenges that Bosnia poses 
are not specific to Bosnia, they are region wide. And so there 
is considerable interest on the part of the governments in 
Zagreb and the government in Belgrade in partnering with us, 
working together trying to help us move Bosnia closer toward a 
stable, prosperous----
    Mr. Meeks. Actually doing something to advance----
    Mr. Palmer. They are working with us. I think there is more 
that we can expect from them and we have made that case in both 
Zagreb and Belgrade. Certainly Zagreb has a lot of influence 
over the leadership of the Bosnian and Croat community as 
Belgrade has a lot of influence over the Bosnian and Serb 
community and the Bosnian and Serb leadership, and we have 
encouraged them to use that influence constructively in pursuit 
of peace and stability.
    Mr. Rohrabacher. Go right ahead.
    Mr. Meeks. No, I just forgot because I just needed to say 
one thing, because, you know, the chairman is my good friend, 
et cetera, but there are times that we disagree on certain 
things. And I just want to say that whatever our disagreement 
is it will not be in the best interest of the United States if 
we don't have a strong EU. And I would hope that the EU will 
continue to be moving and thriving and folks are looking and 
pushing and going that direction. And I think that the EU 
nations are looking to work together to make sure because we 
didn't know how bad things were post-World War II. We have been 
much, it has been much safer and much better with a united 
Europe and we have to continue to focus and make sure that 
happens. So I just had to get that in there for the record.
    Mr. Palmer. I share that hope and expectation.
    Mr. Rohrabacher. Successful. You can have an independent 
bank that dominates your economic system. Wonder who--we 
don't--anyway that is a whole other issue about who controls 
money supply and whether or not they--that that is something 
that should be done by people who are elected by the people of 
the country or whether that can just be independent. But that 
is a whole other issue that we will talk about in another 
hearing. There you go.
    Again, thank you. Let me ask you one thing. So are the 
Serbs playing a positive role now in what you are talking about 
today in trying to find this peace or are they playing a 
negative role?
    Mr. Palmer. I think that the government in Belgrade has the 
same goals and objectives that we have for Bosnia which is an 
integral, stable, prosperous country that functions. Do I think 
there is more that Belgrade can do to help us secure that goal? 
Yes, sir, I do. And we have been in discussions with President 
Vucic, Prime Minister Brnabic and others as to what it is that 
we would hope Belgrade would contribute to that effort.
    Mr. Rohrabacher. Okay.
    And Mr. Perry, do you have a couple minutes that you would 
like to----
    Mr. Perry. Of course, Mr. Chairman. Thank you.
    Mr. Rohrabacher. Go right ahead.
    Mr. Perry. So getting back, Mr. Secretary, capabilities, if 
you will. Are there capabilities that exist that we need to be 
aware of from a military standpoint, from a police standpoint, 
or is it just going to be harsh language if there is discord?
    Mr. Palmer. At this point, sir, we would not anticipate 
that this political challenge becomes a military challenge. 
This is not, Bosnia is not on the brink of war.
    Mr. Perry. That is good to know, but what are the 
capabilities?
    Mr. Palmer. If you are thinking about just in terms of raw 
capabilities, there is certainly plenty of weapons that are 
sloshing around the Western Balkans and there have been for a 
long time. There is an army that is a unitary army. Bosnia only 
has one army. One of the great accomplishments post-Dayton was 
negotiating the reunification of the Bosnian army. In terms 
of----
    Mr. Perry. Does the Bosnian army include heavy weapons like 
tanks, army personnel carriers, air force?
    Mr. Palmer. They do have some heavy weapons, artillery 
tanks, APCs. I think the air force is such, maybe a few 
helicopters.
    Mr. Perry. Okay.
    Mr. Palmer. You know, there is also the police forces in 
Bosnia and Herzegovina which there are a myriad, and police 
forces in that part of the world are more heavily armed than 
police in the United States. So that is another issue to be 
aware of, to watch out for. The Ministry of Interior forces in 
Republika Srpska recently purchased several thousand automatic 
weapons, assault rifles.
    Mr. Perry. Where did they purchase those?
    Mr. Palmer. They purchased from Serbia.
    Mr. Perry. From Serbia, and it is in accordance with the 
Dayton Accord, correct?
    Mr. Palmer. It is not inconsistent with the Dayton Accords, 
but it is something that raised some eyebrows in Bosnia.
    Mr. Perry. Because it is not in the military but it is in 
the police force, but it----
    Mr. Palmer. Police force, and people do remember from back 
in the '90s that the police fought.
    Mr. Perry. Right, which is the reason I asked the question. 
Okay, what about any significant dates surrounding the election 
that might be of import knowing that they memorialize 
atrocities and infractions time after time?
    Mr. Palmer. There are an awful lot of those dates, Mr. 
Perry, and I can't off the top of my head think of any that 
would surround the dates of the elections in October, but they 
haven't announced those dates yet.
    Mr. Perry. Is that something the State Department considers 
to be mindful of, the dates, locations, et cetera, in this 
whole discussion? Or if not, and maybe it is just in my mind, 
but it just seems to me it was an important part of the culture 
in reinforcing some of these mindsets.
    Mr. Palmer. That is certainly true, sir. And I think in 
terms of looking at when the Central Election Commission might 
actually set the date for the elections in October, no one is 
going to be more sensitive to those dates than the Bosnians.
    Mr. Perry. Right, right.
    Mr. Palmer. So I think that we would work with the parties 
to ensure that the electoral process is not only held under 
conditions that are agreed by all, but that the process of 
moving ahead with the balloting is also as smooth and trouble-
free as could possibly be. So we will be working with them 
closely on the ground. Our Embassy is very sensitive to the 
nuances of Bosnian politics and pays very careful attention to 
things like significant dates.
    Mr. Perry. All right, Mr. Chairman, I yield back.
    Mr. Rohrabacher. How many people are in your Embassy?
    Mr. Palmer. How many Americans? Mr. Chairman, I can't give 
you an actual number. I am going to have to get back to you 
with that. I will do a little bit of research and I will get 
you a hard number.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. As our panel is sitting down I would like 
to thank Representative Laughlin that is and make sure I 
pronounce Joe DioGuardi as well for their help in making sure 
that we had a well-rounded group of witnesses. And I appreciate 
that very much to our two former members, Representative 
Laughlin of Texas and DioGuardi from New York.
    [Recess.]
    Mr. Rohrabacher. Okay, we can hear it there. We have four 
witnesses to join us now for our second panel. First witness is 
Dr. Sasha Toperich, okay, a Senior Fellow and Director of 
Mediterranean Basin and Middle East and Gulf Initiative at 
Johns Hopkins University. He serves as the chairman of the 
organizing committee for the Bosnia-Herzegovina Vision 2020 
project at the University Center for Transatlantic Relations.
    We have--now you are going to have to correct me if I am 
wrong--Philippe Leroux----
    Mr. Leroux-Martin. Leroux.
    Mr. Rohrabacher. Leroux. Philippe Leroux-Martin, okay. He 
is the Director for the Rule of Law, Justice, and Security at 
the United States Institute of Peace. Prior to this he headed 
the Legal Department at the International Civilian Office in 
Kosovo and led the public law unit in the Office of High 
Representative in Sarajevo. He is the author of Diplomatic 
Counterinsurgency: Lessons from Bosnia-Herzegovina.
    Then we have with us Shirley Cloyes DioGuardi who is my 
dear friend, but I am mispronouncing your last name I am sure. 
I have done that for years, okay. You have got it--and Joe, her 
husband Joe who served with us in the United States Congress 
from New York. And I say Congressman Laughlin, are you here? He 
was here a moment ago. Oh, way in the back. Thank both of you 
for your help in organizing this hearing.
    Shirley is a Balkan Affairs Adviser to the Albanian 
American Civic League. She is a returning witness to this 
subcommittee. She has a long record of writing and speaking out 
on political developments in the region, particularly on the 
topic of how to bring a lasting peace to Kosovo. And I have 
appreciated their input and guidance over the years.
    And then Kurt Bassuener.
    Mr. Bassuener. Bassuener.
    Mr. Rohrabacher. Say it again.
    Mr. Bassuener. Bassuener.
    Mr. Rohrabacher. Bassuener, okay, is the co-founder of the 
Democratization Policy Council, a global initiative for 
accountability and democracy promotion. He co-authored a recent 
report entitled, Are we there yet? International impatience vs. 
a long-term strategy for a viable Bosnia.
    So are we there yet? Okay, we are going to find out. He too 
has worked for the Office of the High Representative in 
Sarajevo, the Balkan Action Council as well the Balkan 
Institute.
    So we welcome our witnesses. We ask that you try to keep 
your testimony down to 5 minutes. You can put whatever else 
into the congressional record, and then we will have some 
dialogue.
    So, Doctor, you may proceed.

STATEMENT OF SASHA TOPERICH, PH.D., SENIOR FELLOW AND DIRECTOR 
 OF THE MEDITERRANEAN BASIN, MIDDLE EAST, AND GULF INITIATIVE, 
CENTER FOR TRANSATLANTIC RELATIONS, THE PAUL H. NITZE SCHOOL OF 
  ADVANCED INTERNATIONAL STUDIES, THE JOHNS HOPKINS UNIVERSITY

    Mr. Toperich Thank you, Mr. Chairman. Chairman Rohrabacher, 
Ranking Member Meeks, members of the committee, thank you very 
much for inviting me today to testify. I will keep my remarks 
brief and I ask that my full testimony be entered into the 
record.
    Today's hearing, Legacy of Dayton, Future of Bosnia-
Herzegovina and the Western Balkans, could not come at a more 
critical time. In just 20 days, Bosnia-Herzegovina will pass a 
deadline by which it has to pass legislation to comply with the 
Constitutional Court to reform electoral law. There is no 
compromise political agreement in sight. Parliament and the 
Bosnian political leaders should be pressed by allies at home 
and abroad to pass the electoral law change before the October 
elections. The alternative to carry out the elections in 
October without the passing of the electoral law reform could 
bring Bosnia-Herzegovina into a constitutional and political 
chaos.
    Also, for 8 years Bosnian political leaders failed to 
implement Sejdic-Finci, European Court of Human Rights verdict 
that would allow minorities such as Jews to be elected 
President. These changes are prerequisite for Bosnia-
Herzegovina to join the European Union. Other citizens such as 
Ms. Zornic also won the lawsuits against Bosnia-Herzegovina as 
she was being found ineligible to stand for election to the 
House of Peoples and the presidency as she refused to declare 
affiliation with any constituent people, namely Bosniaks, 
Serbs, Croats, but simply wanted to run for the office as a 
citizen of Bosnia-Herzegovina.
    Due to the political stalemate, citizens of city of Mostar 
have been deprived of voting rights for both 2012 and 2016 
elections. This simply should not be case in 2018. The leaders 
in Bosnia-Herzegovina have developed a bad habit of ignoring 
court rulings they dislike and to attend to important issues at 
the very last moment and that often only when pressured by the 
European Union and the United States. Bosnia-Herzegovina must 
develop a new habit of respecting court judgments even if 
politically unpopular. Parties in Bosnia-Herzegovina need to 
reform the electoral law or we could face a crisis in the 
country and instability in the region. Simultaneously, they 
need to work on finding solution to all courts' verdicts in 
order to enable basic rights for all of its citizens.
    Inactivity can lead Bosnia-Herzegovina into danger of 
political instability that will inevitably lead to regional 
instability which will only play into Russia to further pursue 
her agenda. Milorad Dodik, President of Republika Srpska, one 
of the two sub-entities in Bosnia-Herzegovina who is sanctioned 
by the United States, continues to deny genocide over 8,000 
Bosnian Muslim in Srebrenica. Close to Putin, his continued 
separatist rhetoric remains to be the highest threat to Bosnia-
Herzegovina and regional stability.
    Given this, I would like to present the committee with 
three recommendations. Congress and the Trump administration 
should take a leadership role in finding a solution and 
strongly support our Embassy in Bosnia-Herzegovina effort that 
work closely with European Union in mediating positive solution 
to election law. It is encouraging that Wess Mitchell, our 
Assistant Secretary for European, Eurasian Affairs is now more 
engaged in the Balkans. The U.S. should reach out to our 
European partners and request them to follow U.S. sanctions on 
Milorad Dodik with a set of their own, as Dodik's separatist 
rhetoric continues to represent a serious threat to regional 
stability.
    To counter Russia influence, the United States should work 
with its NATO partners to reach political decision and activate 
a NATO Membership Action Plan for Bosnia and Herzegovina as 
early as this July at the NATO's next summit in Brussels. This 
would also be an opportunity for Turkey to play a constructive 
role in advancing security and stability in the Western Balkans 
through NATO's institutions by helping bringing Bosnia-
Herzegovina a step closer to the full NATO membership.
    Activation of the MAP of Bosnia-Herzegovina would help 
reduce widespread corruption and would send a strong signal to 
political elites to stop interfering in justice system 
currently under their heavy influence and would reduce their 
elevated ethnic rhetoric with which they manipulate the masses 
time over again. Improving independence of judiciary system in 
Bosnia-Herzegovina is key to stopping political elites in using 
their mechanisms of power to prosecute business community 
leaders who hold different political views, often being 
racketeered by the politicians for not bowing to their 
pressures.
    In closing, a strong democratic, multiethnic and Euro-
Atlantic Bosnia-Herzegovina is in the United States' interest. 
American leaders should do all they can to help make this 
happen. Thank you.
    [The prepared statement of Mr. Toperich follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Leroux-Martin?

STATEMENT OF MR. PHILIPPE LEROUX-MARTIN, DIRECTOR, RULE OF LAW, 
         JUSTICE, AND SECURITY, U.S. INSTITUTE OF PEACE

    Mr. Leroux-Martin. Mr. Chairman, Ranking Member Meeks, and 
members of the subcommittee, thank you for the opportunity to 
testify today. My testimony will cover the following three 
questions: First, how Bosnia has arrived at the current 
electoral impasse; second, what solutions have been----
    [Off-microphone comment.]
    Mr. Leroux-Martin. Of course. How Bosnia has arrived at the 
current electoral impasse; second, what solutions have been put 
forward; and third, what can we learn about the continued 
efficacy of the Dayton Agreement?
    As far as the first question is concerned, Mr. Chairman, I 
think a useful way to understand the dynamic of the current 
electoral impasses in Bosnia today is to think of a complex, 
interconnected power grid in which a critical node is about to 
lose its energy supply. If we are unable to fix the supply of 
energy to this critical node in the next 6 months, other key 
components of the grid will be affected.
    The current electoral impasse in Bosnia originates from one 
of Bosnia's two Federal entities and that is the Federation of 
Bosnia and Herzegovina. The Federation entity government has 
legislative branch composed of a House of Representatives and a 
House of Peoples. In December 2016, the Constitutional Court of 
Bosnia declared certain provisions of Bosnia's election law 
that were regulating the election of delegates to the House of 
Peoples of the Federation to be unconstitutional. The 
Parliamentary Assembly has to date failed to enact new 
provisions. This has led to a legal vacuum, and this legal 
vacuum is at the very center of the electoral impasse we are 
facing today.
    Absent a solution, several components of Bosnia's 
governance structure could be paralyzed given that the House of 
Peoples plays a critical role in the formation of governments 
both at the entity Federation level but also at the state 
central level. Going back to my analogy, the Federation's House 
of Peoples is a critical node in Bosnia's systems of 
governance.
    Moving on to my second point about the solutions that I put 
forward, Mr. Chairman, the Constitutional Court's decision 
reignited an intense competition between political parties in 
the Federation and has reopened the issue of the representation 
of Bosnian Croats in its governing structures. This competition 
has taken the form of a dispute over various gerrymandering 
proposals. Political parties have proposed amendments through 
discussions led by the European Union and the United States. 
The proposals have so far all failed as none have sought a 
genuine compromise.
    Looking forward, I think the United States and EU should 
obviously remain very flexible vis-a-vis any potential 
solution, but I think an agreement on a solution should meet 
the following principles, and there are five of them. First, it 
should comply. Any solution should comply with the 
constitutional framework of Bosnia. Second, it should have the 
political support necessary to engage, to ensure passage before 
the relevant legislatures. Third, it should not further 
undermine Bosnia's capacity to ensure that its electoral system 
complies with the European Convention for Human Rights. Fourth, 
it should ensure that the right to vote and the right to be a 
candidate for a seat in the Federation House of Peoples is 
guaranteed for all cantonal delegates belonging to a 
constituent people. And, finally, it should not further 
undermine Bosnia's governance structure.
    Moving on to the last question about Dayton's efficacy, Mr. 
Chairman, it is clear that the current electoral impasse is 
another illustration of the deficiencies faced by the complex 
governance structure established at Dayton. It is true that the 
Dayton constitution is not perfect. It is worth remembering, 
however, that the Dayton Agreement is a peace agreement that 
was supported by the United States, the European Union, and 
Russia, to stop a brutal war. It reestablished freedom of 
movement throughout the country. It allowed more than one 
million persons who had been displaced by the war to exercise 
their right to return to their homes under the peace agreement.
    Although progressing slowly and painfully, Bosnia is 
nevertheless progressing toward EU and NATO membership today. 
When compared to other recent peace processes, Dayton has been 
a clear success. Many voices have been suggesting a complete 
overhaul of Dayton over the last few years. I would caution 
that attempts to overhaul Dayton may be very hard to implement 
in reality. I think a more effective strategy would be to 
reform Dayton through a series of incremental agreements and in 
order to avoid any further weakening of the central state, the 
United States and the EU should state that only a united Bosnia 
with a stronger central level of government would be able to 
join the EU and NATO.
    And, finally, to be successful I think the United States 
and the EU will need to ensure that both Serbia and Croatia 
play a positive role throughout this process. Thank you for the 
opportunity to testify. I look forward to your questions.
    [The prepared statement of Mr. Leroux-Martin follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


  STATEMENT OF MRS. SHIRLEY CLOYES DIOGUARDI, BALKAN AFFAIRS 
            ADVISER, ALBANIAN AMERICAN CIVIC LEAGUE

    Mrs. Cloyes DioGuardi. Thank you, Mr. Chairman. I will 
submit my remarks for the record and make a summary now and I 
would also like to submit two pieces for the congressional 
record. One, a piece on ethnic politics in the Western Balkans 
focusing on Bosnia and Macedonia, by my colleague Roland Gjoni, 
expert in international law and a senior fellow in political 
science at the University College Dublin, and then the Albanian 
platform in Macedonia which I will refer to later.
    Mr. Rohrabacher. Those items will be included in the 
record, without objection, as will the extension of remarks 
will also be included.
    Mrs. Cloyes DioGuardi. Thank you, Mr. Chairman.
    While the Dayton Accords ended the war in Bosnia in 1995, 
it did not resolve the Balkan conflict. The House Committee on 
Foreign Affairs made a very serious effort to reveal the 
realities of Slobodan Milosevic's 10-year occupation of Kosovo 
and genocidal march across the Balkans which ultimately claimed 
at least somewhere between 100,000 and 200,000 lives and 
displaced four million during the Bosnian War. Under pressure 
from your committee, the Clinton administration finally 
initiated NATO airstrikes against Serbia in March 1999 as we 
know to bring an end to the war in Kosovo begun in 1998 as a 
continuation of the Balkan Wars of the 1990s.
    Nevertheless, the roots of the Balkan conflict remain 
unresolved to this day and the crux of the problem lies in the 
signing of the Dayton Accords. Why? Because U.S. Balkan Envoy 
Richard Holbrooke, then chief U.S. negotiator at Dayton, cast 
Serbian dictator and later indicted war criminal Slobodan 
Milosevic into the role of the peacemaker. And instead of a 
peace agreement that would have outlined the steps to restore 
Bosnia-Herzegovina to its pre-war reality as a society of 
multiethnic and multireligious harmony among Bosniaks, Croats, 
and Serbs, Dayton divided Bosnia-Herzegovina, as we have heard, 
into two entities with a weak Federal Government. And, 
incredibly, Milosevic was rewarded with the recognition of a 
previously nonexistent political entity called Republika 
Srpska, and it has left Bosnia-Herzegovina on the brink of 
being ungovernable ever since because Srpska blocks the Federal 
Government from functioning for the benefit of all Bosnian 
citizens.
    The second reason why the roots of the Balkan conflict were 
not resolved at Dayton is rarely acknowledged by Western 
governments and foreign policy experts, namely that Milosevic 
agreed to arrive at the negotiations only if two conditions 
were met: That Albanians would not be allowed at the table and 
that Kosovo would not be part of the agenda. This set the stage 
for Milosevic's military attack on Kosovo in 1998.
    And by the way he had always intended to carry out ethnic 
cleansing there before his troops invaded Bosnia in 1992, but 
it was actually former Congressman Joe DioGuardi, who I did not 
know at that time, and members of the Albanian American Civic 
League who were able to educate the U.S. Congress about 
Milosevic's plans, thereby placing the spotlight on Milosevic 
that led to his temporary exit from Kosovo.
    Dayton's neglect of the Albanian issue is still a very live 
legacy and the West's historical appeasement of Serbia is the 
principal problem. Belgrade has resorted to provoking violence 
in Northern Kosovo, the area that it has controlled and 
manipulated financially and politically ever since Kosovo came 
under U.N. protection at war's end in the summer of 1999. 
Unless the United States stops taking a backseat to Europe and 
the Balkans, Serbia will be admitted to the European Union 
while simultaneously achieving what has always been its primary 
goal: The denial of Kosovo's sovereignty and the acquisition of 
Northern Kosovo and Republika Srpska.
    The legacy of Dayton also includes the lack of reciprocity 
for Albanians in the Presevo Valley where they are second- and 
third-class citizens of Serbia while the Kosovo Serbs have the 
highest level of human and civil rights of any minority group, 
I would add, in Europe. And the legacy of Dayton also resulted 
in the constitutional and systemic oppression and 
discrimination of Albanians in Macedonia. It is Macedonia that 
I believe the U.S. Government must now focus on.
    It is frequently forgotten that when the former Yugoslavia 
disintegrated, the Republic of Macedonia emerged as an 
independent state without violence in 1991 based on the 
cooperation of ethnic Albanians and ethnic Macedonians. 
Macedonia is the only country in the Western Balkans where no 
one ethnic group has a true majority. But the subsequent 
failure to bring equal human and civil rights to all ethnic 
groups in Macedonia led to armed conflict in 2001. To end the 
conflict, as we know, the EU and the U.S. Government entered 
into negotiations with the ethnic Macedonian and ethnic 
Albanian political leaders that resulted in the signing of the 
Ohrid Framework Agreement, which was supposed to achieve the 
equitable representation of all national groups in the state's 
institutions as well as the equitable distribution of 
resources. Seventeen years later, Ohrid implementation has 
stagnated in relation to the judiciary, law enforcement, 
military, intelligence, and fiscal decentralization, and ethnic 
Macedonian domination is constitutionally entrenched and yet to 
be addressed.
    The current political crisis in Macedonia cannot be 
resolved short of grappling with the key Albanian grievances. 
Macedonia will never become a functioning democracy if it 
discriminates against 30 to 40 percent of its population--
Albanians and other non-Slavs. But again, achieving ethnic 
equality now is at risk once more in Macedonia. In January 
2018, the Macedonian Parliament twice passed the law making 
Albanian the country's second official language, which was 
mandated in an agreement between Zoran Zaev's SDSM party and 
the ethnic Albanian parties called the Albanian Platform and 
used it to form the new government.
    Even so, as we speak, Macedonian President Ivanov, starting 
in January, twice vetoed it claiming that a second official 
language would threaten Macedonia's unity and territorial 
integrity. The Macedonian Constitution requires the passage of 
this law after two votes in favor, but this is yet to happen 
because Ivanov has declined constitutionally to sign the law, 
and he is now stoking ethnic tensions that may have domestic 
and regional implications. Ending discrimination against ethnic 
Albanians by providing equal opportunity for economical and 
social growth in areas where Albanians are ethnic majorities 
can dramatically reduce the possibility of future armed 
conflict.
    The question remains whether the United States and the 
European Union will step forward to negotiate a timeline to 
achieve full equality of the Macedonian and Albanian 
communities before the country's admission to NATO. Especially 
in Macedonia, we witnessed a foreign policy approach in the 
U.S. Government for the past 20 years that focused on stability 
at all costs--as you have often pointed out, Mr. Chairman--
instead of making conflict prevention and human rights the 
center of our engagement with the region. Hence, post-Dayton, 
the Balkan conflict is still unresolved. Thank you.
    [The prepared statement of Mrs. Cloyes DioGuardi follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you.

    STATEMENT OF MR. KURT BASSUENER, CO-FOUNDER AND SENIOR 
           ASSOCIATE, DEMOCRATIZATION POLICY COUNCIL

    Mr. Bassuener. Thank you, Chairman, Ranking Member, and 
members of this committee. I welcome this timely hearing which 
will draw overdue attention to a more than decade of negative 
trajectory in Bosnia-Herzegovina and the reasons for that. This 
an area in which the United States and the West have been 
deeply engaged for over two decades. And where we have a wide 
array of incentives and mandates that could be of utility, we 
need to understand why we got here to discuss this wider 
manner.
    Essentially, the United States started to take a backseat 
and downshift its engagement in the region as a whole and 
particularly in Bosnia's case in about 2006 because there was 
an understanding that the carrots of EU and NATO membership 
were going to impel forward movement. So the only question at 
that point was in the common understanding was to question the 
velocity of forward movement. I think the events since 2006 
demonstrate that is not the case.
    So at its root the issue at hand is not a question of Croat 
rights and constituent peoples, rather, it is one of deeper 
incumbency burrowing and self-protection of entrenched elites 
and this is a manifestation of a far wider, broader, and deeper 
problem, longer running problem. Bluntly put, Bosnia-
Herzegovina's political elite constitutes a political business, 
organized crime, media nexus across the ethnic spectrum. I am 
not picking on any particular group. But nothing--their primary 
incentives are can they keep what they stole, can they remain 
positioned to keep stealing, and can they remain unaccountable 
both politically and legally? This system allows them to do 
that. Nothing the EU can offer them is better than that which 
is why there hasn't been forward movement.
    So while there is no shortage of culpability to go around 
across the full spectrum of Bosnia's political elites, the fact 
remains that the alliance between Republika Srpska's President 
Milorad Dodik and HDZ Bosnia-Herzegovina leader Dragan Covic 
has steadily eroded the progress achieved in the first decade 
since the war, at great taxpayer cost by the way, with the aim 
of effectively carving out secure ethnic fiefdoms of absolute 
control. This will ultimately lead to state collapse if it is 
not resisted, so it demands resistance.
    The escalating challenge to Bosnia-Herzegovina's 
sovereignty that we have witnessed over the past decade has 
brought out the worst in Serbia and Croatia. They are both 
involved in Bosnia's internal politics to a degree that was not 
permitted for the first decade since after the war. In fact, 
all the nationalist agendas that were prevalent in the 1990s 
are operating without restraint because we are not restraining 
them anymore. We were the enforcer of the Dayton order. We have 
ceased to be the enforcer of the Dayton order. There are no 
rules because they are not being enforced. All the ingredients 
for organized violence or escalation of a violent inter-ethnic 
incident are there in terms of weapons. I could come back to 
that in the Q&A.
    So there is a deep popular hunger for a rules-based 
political system in Bosnia-Herzegovina that is fully compatible 
with collective protections and direct political representation 
which you don't have. Bosnians can't write their congressman 
because they don't vote for them on a territorial basis, they 
vote on a party list. So there is no accountability above the 
municipal level for anybody in Bosnia's political system.
    So the strategic goal for the United States, EU, and our 
other Western allies on the Peace Implementation Council which 
enforces the Dayton Peace Agreement needs to be arriving at a 
governance system that allows for functional democratic 
representation, accountability, and good governance. This needs 
to be the post-election focal point of American foreign policy 
for which we need to be preparing now. So in very brief terms, 
what is to be done? One, the United States needs to fill the 
deterrent gap in Bosnia. There is no deterrent to violence 
right now. Not legally, because we don't have a foothold for 
it, but practically, the EU-operated deterrent force, which 
NATO used to do under our command up until 2004, is not suited 
to task. There needs to be American participation in a 
reinforced Chapter 7 deterrent for which we have the mandate--
we don't need to ask anybody's permission--including troops in 
Brcko and Mostar prior to the October elections.
    Second, we need to replace the moribund leadership of the 
Office of the High Representative and reinvigorate the 
international civilian enforcement of Dayton Peace Agreement 
with an American high representative. There is nothing in the 
Dayton Agreement or anything else that prevents that. That is a 
lack of political will. If there is Western unity it can 
happen. Second, on this particular issue of the Ljubic case and 
the Constitutional Court ruling, there needs to be an effort to 
try to arrive at a compromise prior to the elections, but 
recognition that might not happen. And by getting in on the 
security end at the front end we reduce the potential downside 
of not arriving in that compromise.
    And third, we need to focus on the fundamental problem of 
why Bosnia is the laggard of the region which is a lack of 
accountable representative, democratic governance and this was 
the reason that there was popular unrest in 2014 and it may 
reemerge. Thank you very much for your time.
    [The prepared statement of Mr. Bassuener follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for your testimony to 
all the witnesses. We are joined by Brad Sherman of California 
and we are going to pay him the courtesy of having the first 
shot at the witnesses today.
    Mr. Sherman. Thank you. Yugoslavia shows a clash of the two 
great principles of diplomacy and international law, self-
determination and territorial integrity. And it is not 
surprising that the United States is schizophrenic on the clash 
of these two principles since only two great wars have been 
fought on our territory. Leaving Dolly Madison and 1812 aside, 
the first launched in 1776 was a great war for self-
determination and in 1861 we fought hard to preserve our 
territorial integrity.
    There seems to be some illogic into how we applied these 
two principles. We were for self-determination of the 
individual republics of the former Yugoslavia. Then we were for 
the territorial integrity of those republics. When sections of 
the republics tried to assert their self-determination we 
accept with regard to Kosovo. So we did not support the 
territorial integrity of the Republic of Serbia; we did support 
the territorial integrity of Croatia and saw the ethnic 
cleansing of Serbs from Krajina.
    We support the territorial integrity of Bosnia. We now 
support the territorial integrity of Kosovo when Northern 
Kosovo wants to secede. So it was okay for Kosovo to secede 
from Serbia but not Northern Kosovo to secede from Kosovo. One 
would think that this is all illogic and has no pattern, but 
there is a clear pattern. We are anti-Russian and therefore 
anti-Serbian and we are re-fighting the Cold War over again.
    And I will point out that Russia has been equally illogical 
and has been pro-Orthodox Slav and anti-the other groups in the 
area in its behavior. How many Serbs were ethnically cleansed 
from Krajina? Does anyone know?
    Mr. Bassuener. I believe the figure that is most commonly 
talked about is 250,000.
    Mr. Sherman. And has the West urged them to be compensated 
in any way or is there any chance they will get their land 
back?
    Mr. Bassuener. The West has definitely encouraged refugee 
return----
    Mr. Sherman. Encouraged, but----
    Mr. Bassuener. Facilitated but, you know, the numbers are 
small.
    Mr. Sherman. I mean has Croatia been excluded from 
international organizations until they make good?
    Mr. Bassuener. No.
    Mr. Sherman. Because the West is lining up against Slavic 
Orthodox instinctively as an anti-Russian approach. I am going 
to shift to a different area. That is, Muslims in this world 
have been faced with genocide twice, Kosovo and Bosnia. It was 
the United States that bombed a Christian country twice in 
order to protect Muslims. Has enough been done to educate the 
Muslim world that the United States, hardly the oppressor of 
Muslims, was the decisive country, the only country to come in 
from, just about the only country to come in from the outside 
and kill people by the score, Christians I might add, in order 
to protect Muslims? Does the average person in Jakarta or Rabat 
know this?
    I realize you folks focus on the former Yugoslavia, but 
what has been done by the Governments of Bosnia and Kosovo to 
send people out to buy advertising time to deal with Muslim 
organizations and to make sure that every mullah in the world 
knows that it was America that bombed Christians to save 
Muslims when no one else would? Does anyone know whether they--
and what portion of their budget do they devote to this effort?
    Yes?
    Mrs. Cloyes DioGuardi. I would first like to, if you don't 
mind, Congressman Sherman, make a statement that I think is 
very, very----
    Mr. Sherman. You know, I have 27 seconds more.
    Mrs. Cloyes DioGuardi. No, I will be very quick, but you 
are talking about Kosovo as a Muslim nation. It is just not the 
case. All Albanians are----
    Mr. Sherman. Is Kosovo a majority Muslim nation?
    Mrs. Cloyes DioGuardi. It is majority secular Muslims 
living side by side and in harmony with Orthodox Christians, 
Roman Catholics, and Jews. So I just want to----
    Mr. Sherman. You have dealt with me on the committee long 
enough to know that there is separate tradition for Sherman.
    Mr. Rohrabacher. Special rule for you for minutes of 
dialogue after you are done.
    Mr. Sherman. Okay, yes.
    Mrs. Cloyes DioGuardi. I just wanted to clarify that.
    Mr. Sherman. Obviously throughout Europe there is a decline 
of religious participation, but.
    Mrs. Cloyes DioGuardi. I just want to say the U.S. wasn't, 
you know, attacking a Christian nation.
    [Off-microphone comment.]
    Mrs. Cloyes DioGuardi. Oh, I thought it was, but I did push 
it. But the U.S. was not perceiving this, in my understanding, 
as an attack on Muslim nations, an attack against Christians in 
order to save Muslims.
    Mr. Sherman. No, we bombed Serbs in order to save Kosovars 
and probably did the right thing. But it just so happens that 
Kosovo is part of the greater Muslim majority world whether or 
regardless of where people are on Friday at noon.
    Mrs. Cloyes DioGuardi. Right, except the Albanians are 
Albanians first, people of faith second.
    Yes, okay, just thought that----
    Mr. Sherman. Okay. But does anybody have a comment? Has the 
Government of Kosovo or the Government of Bosnia-Herzegovina 
devoted any substantial part of its worldwide efforts to 
helping the United States with this problem we have in the 
Muslim world?
    Mr. Rohrabacher. Okay, was that a question?
    Mr. Sherman. That is a question.
    Mr. Rohrabacher. Let's go. We have one, two, three, four--
--
    Mr. Sherman. And I don't know is an acceptable answer.
    Mr. Toperich Mr. Congressman, I think digging out a ghost 
of the past 20 years ago and beyond doesn't help anyone in 
today's hearing, but I would say all the countries of the 
Western Balkans opted to join the European Union. Serbia and 
President Vucic, he is a positive leader of Serbia now. He was 
at SAIS. He was here with the Vice President Biden. He was 
coming well-received in Washington, DC, very often in Brussels. 
Serbia has made a commitment to join European Union and 
everybody recognizes special relationship with Russia.
    In respect to all the countries, whether with the Muslim 
populations and Serbia has a Muslim population, Bosnia has a 
Muslim populations, all of these countries----
    Mr. Sherman. Doctor, this is time to answer the question, 
but the question is what do the Governments of Kosovo and 
Bosnia do to help educate people from Rabat to Jakarta about 
the heroic efforts of the United States? That is the question.
    Mr. Toperich I think these efforts, Mr. Congressman, is our 
role in history everywhere. Everybody talks about, everybody 
are grateful to the United States that they stopped the war in 
Bosnia-Herzegovina and Kosovo.
    Mr. Sherman. And so everybody in Jakarta and Rabat knows, 
okay.
    Mr. Toperich I believe so.
    Mr. Leroux-Martin. Congressman, I cannot speak on behalf of 
each government and namely the Government of Kosovo or Bosnia 
on the diplomatic steps or other steps they are taking. What I 
can tell you for having worked in the region is that it is 
absolutely clear when you walk in the streets of Pristina or 
even if you walk in Bosnia that the population is very grateful 
for the----
    Mr. Rohrabacher. Very what?
    Mr. Leroux-Martin. Very grateful for the role that the U.S. 
has played. Very often if you walk in Pristina you will 
recognize that statues or streets or even coffee shops are 
named after prominent Americans who have played a very positive 
role. And I would imagine if you look at the track record, the 
diplomatic track record of Bosnia or Kosovo that both have been 
very helpful in helping the U.S. in pursuing its interests on 
all sorts of fronts. But I cannot speak on behalf of the 
specific campaigns or the resources that have been invested by 
these governments to promote the role that the U.S. has played.
    Mrs. Cloyes DioGuardi. Congressman Sherman, I can tell you 
about Kosovo. Because Albanians are so pro-American, as soon as 
740 Kosovar Albanians ended up going to fight with ISIS this 
created enormous alarm. And the NGOs and the Kosovo Government 
and our Embassy and USAID in Kosovo immediately came together 
and began a very, very effective and dramatic program to make 
sure that no one else returned and to demonstrate the fact that 
Kosovar and Albanians in other parts of the Western Balkans 
would be committed to preventing ISIS from moving into Western 
Europe and then certainly into their own societies. It has been 
well established.
    Mr. Bassuener. Congressman Sherman, I think since Ms. 
Cloyes DioGuardi spoke about Kosovo I can speak about Bosnia. 
The governance system in Bosnia-Herzegovina would impede such a 
campaign actually being adopted because there would be 
difference of opinion over the American intervention. So I 
think that is a reflection of what we have been discussing 
earlier today.
    Mr. Rohrabacher. Thank you, Mr. Sherman.
    Mr. Perry?
    Mr. Perry. Thanks, Mr. Chairman. Well, I think if nothing 
else, Mr. Sherman has--let's face it. I mean how far do you 
want to go back? And I think the seventh century or so might be 
as about the right time frame and the infractions are--well, I 
mean that is about where this stuff starts, right? And maybe it 
is not important to Americans, but is certainly important to 
the people that live in these places and I think it is 
important for us as Americans to acknowledge that it is part of 
the situation, right.
    So, but we are where we are, right, so maybe let's talk 
about some tangible things. I missed something, Mr. Leroux, if 
I am pronouncing that correctly, in your opening statement 
about the electric grid. Can you elaborate what were you 
talking about specifically there?
    Mr. Leroux-Martin. Sure, Congressman, and I apologize if 
the analogy was not too clear. What I was trying to get at is 
to highlight the importance of the House of Peoples in the 
Federation for the entire governance structure of Bosnia. The 
delegates in the House of Peoples have a role to play, a 
crucial role to play in the formation of the government at the 
entity level in the Federation entity. So they are responsible 
to approve the president and the vice president of the 
Federation. They also have the responsibility to approve the 
cabinet, but they also have a role to play vis-a-vis the House 
of Peoples in the state level Parliamentary Assembly in that 
they are responsible to elect delegates to the House of Peoples 
at the state level.
    And moreover, as Kurt was mentioning earlier, the 
presidency of Bosnia can rely, based on the constitution, on a 
mechanism which is called a vital entity interest mechanism 
which is a veto mechanism. So any member of the presidency can 
refer to a caucus in the House of Peoples at the Federation a 
decision and then block that decision to that. So the House of 
People, that is what I was trying to get at.
    Mr. Perry. Okay.
    Mr. Leroux-Martin. They are a critical node that can 
block----
    Mr. Perry. Yes, and I want to make sure I understand that 
correctly. And I think Mr. Bassuener has--am I pronouncing 
that----
    Mr. Bassuener. Bassuener.
    Mr. Perry. Bassuener has kind of codified it easily for 
Western people, right, what is the problem here. And as much as 
from my standpoint I don't think America wants to decide, like 
we want the people of Bosnia to decide, but I think you 
codified it correctly. They have little impetus, the people in 
the position, to decide to make any changes because it suits 
their interest to keep it exactly the way it is. We don't want 
to be heavy handed. I mean I think America unduly gets 
characterized and we get called imperialist enough as it is, 
right? We are just trying to help people get along and solve 
problems and stop the killing and so on and so forth.
    So let me talk to you about a couple things. Filling the 
deterrent gap, let's be real specific. You are talking about 
troops on the ground as an impetus and would this be another 
NATO mission or you are saying that it is Americans?
    Mr. Bassuener. I am saying as part, certainly not a 
majority of such a force. Right now, just to be clear, 
presently, and this flows back to the Dayton Agreement Annex 1-
A, NATO was the military element of the enforcement mechanism.
    Mr. Perry. Right.
    Mr. Bassuener. So that was handed over to the European 
Union as of the end of 2004. It is still NATO forces, 
effectively, under a different flag. That force is now 600 
troops. They couldn't defend themselves if challenged. The 
theory is that they would be reinforced from without by air. 
That might take time and by then you are not deterring you are 
reacting. So as I said, all the elements for potential violence 
are there.
    In terms of weapons it is roughly one per household in 
terms of average firearms ownership or possession and this is 
stuff that would be illegal under American law to put it 
clearly. It doesn't get used, which it speaks to the 
forbearance of your average Bosnian of every flavor and stripe, 
but it could be. So yes, the deterrent number the DSACEUR, 
Deputy NATO chair, had put forward was a brigade which is 
roughly 3,000 to 4,000 troops, to actually fulfill that role. I 
think a battalion of American troops as a challenge to our 
other NATO allies to fill that gap would be important 
particularly in Brcko and Mostar which are the most likely 
ethnic flashpoints and we don't need a new mandate for that. We 
have it.
    Mr. Perry. And that is why you picked Brcko and Mostar just 
because of the specific----
    Mr. Bassuener. That is where, it could kick off in a lot of 
other places. Brcko is the hinge which is the circuit breaker 
of any attempt at secession by the Republika Srpska because it 
is not territorially contiguous if that is not possessed. And 
that is why in RS Government maps it is part of the RS.
    Mr. Perry. Right. It is part of it, right.
    Mr. Bassuener. And Mostar because of the ethnic divide 
there.
    Mr. Perry. So this is kind of, there will be I think a long 
answer to a short question, you know, responsible governance 
where the citizens are tied to the person that they elect and 
more importantly the elected official is tied to the citizen, 
you seem to have a lot of answers or least a lot of thoughts 
about answers. How do they get to that point?
    Mr. Bassuener. Well, you mean how do we get from the 
blockage of the political elites to getting to a system that is 
actually responsible to citizen----
    Mr. Perry. How do they change the system? You keep on 
saying ``we,'' right.
    Mr. Bassuener. Yes, yes. No, that is fair. I mean----
    Mr. Perry. I don't know if we want to be involved if we 
don't have to be, right?
    Mr. Bassuener. Well, we--our best value added, let's be 
intellectually honest, we can't fix Bosnia. What we can do is 
create more conducive conditions for Bosnians who do want to 
fix Bosnia to get traction. Right now, the Daytonist system is 
an initiative-destroying machine and the two tools of patronage 
and fear are heavily amplified in the hands of the political 
elites and they work as a package deal. That is why the public 
sector is so important because you are not going to vote 
against the powers that be if you are afraid of losing your job 
and you are not sure you voted secret. It is very integrated. 
By taking fear out of that equation or at least radically 
reducing it by making clear to everybody violence is off the 
table, right now that is not the case. Everybody's worst fear 
now is feasible in a way that it was not in 2006.
    So simply doing that and making clear we are going to 
enforce the bad old rules until there are new rules and try to 
catalyze that is, it would be an enormous help to moving 
forward. I think there is a potential constituency for a very 
different sort of Bosnia-Herzegovina, to be honest, which needs 
to involve a critical mass, a supermajority of each self-
defined group which, as the chairman noted, is more than three.
    So that would be the mechanics of it by declaring we are 
going to enforce Dayton, we are not going to allow violence, 
and you need to move toward something better to ever be able to 
be functional or a member of our clubs.
    Mr. Rohrabacher. Well, all right. We have been marking 
time, a little time for Mr. Meeks to come back, but I will just 
move forward and hope that they get back in time for his input.
    First of all, let me just note, and again with the first 
witness we had a good interaction there. I do believe that the 
long-term idea that I think is dominating our abilities to 
function is the idea that all of these people are going to be 
in the EU and we are going to be able to walk away. They just, 
this whole--and I, as I say, my vision of what is going on in 
Europe is that the EU is disintegrating and it will not be 
there to provide this kind of solution. So maybe we can try to 
focus on and as we have done here, what we can do to make these 
groups who live in proximity to each other not activate 
themselves into killing each other. And we have, I mean the 
Bosniaks then are basically Muslim people like in Albania but 
they are not Albanian; is that correct? Do they speak Albanian, 
the Bosniaks? What language do the Bosniaks speak?
    Mr. Bassuener. Serbo-Croatian.
    Mr. Rohrabacher. Serbo-Croatian, okay. And the Serbs speak 
Serbo-Croatian and the Croatians speak just Croatian. No? Okay. 
Well, they all speak the same language; is that right? And they 
kind of look alike too, don't they? Okay. They look alike and 
they speak alike, hmm, okay. It seems to me that we should be 
able, maybe it is sort of like going next door down the street 
because they hear there is a ruckus down the street, but maybe 
you don't have the solution when you tell these guys you really 
shouldn't be fighting with your wife like that because you are 
making so much noise when, you know, that perhaps they have got 
to settle it for themselves. I would hope that we can come up 
with trying to be an honest broker.
    And, you know, when I was a kid, I was like 20 years old I 
was driving down this road near the harbor in Los Angeles and 
there was this big gang of people and right in the middle of 
them were these guys who were fighting. I mean they were like, 
and it was really bloody. I mean they were sort of big thug 
guys and they were just beating on each other. And one guy was 
really, I mean he was getting covered with blood. The biggest 
guy was the one who was getting covered with blood. And I 
walked up there and I said, you know, isn't there some way we 
can solve this? And they punched me in the face. I remember 
that forever.
    Luckily we did not get punched in the face and we did have 
some positive role when all this killing was going on back in 
the 1990s. I actually think the United States played a very 
positive role there. And the fact that they haven't been 
killing people and that that carnage has been at least halted, 
that is something that I think America can be proud of. And I 
do think that it probably took us an ability for, in order to 
accomplish that I think we probably did have to exercise the 
bombing of Belgrade and we did. And I think after that it 
stopped.
    Now with that said, I will say that in the years since I 
have found at this point in time, after all this time has 
passed the Serbs seem to be open-minded toward working to some 
solutions. They haven't recognized Kosovo yet, but the Serbs 
are very willing to try to have this alteration of the border 
so that this area where 90 percent of the people are Serbs then 
become part of Serbia and another area that is about 80 percent 
Kosovar becomes part of Kosovo, they are willing to make that 
kind of an agreement and I think we should praise them for 
that. The Kosovars aren't, and I think the Kosovars aren't 
because, sorry, because our people think that getting all these 
people into the EU is the ultimate solution and the EU will not 
put up with any changes in boundaries.
    So I think that maybe we should be operating independent of 
that kind of concept because I don't think it is going to work. 
One thing we are, and as we are discussing here, we are 
discussing whether or not a protecting individual rights and 
human rights in a country and then having at the same 
protecting group rights is going to work. Now what we have, we 
heard about what was going on in Macedonia. The Macedonians 
speak a different language. They have two languages there. That 
doesn't seem to be the problem in Bosnia. And, however, in 
Macedonia one of the big things that is causing an upheaval is 
that they won't let people speak that second language.
    Let's note that and say, okay, are the Macedonians going to 
be able to get along and are they going to be able to succeed 
with that concept? Because the--and correct me if I am wrong, 
Shirley, and that is that the Macedonians while they have their 
language, the Albanians have this separate language and the 
Albanians would like to have their--if they do not have it, do 
the Albanians in Macedonia consider speaking Albanian to be 
their individual right, is my question to you, Shirley.
    Mrs. Cloyes DioGuardi. Again Albanians--thank you. 
Albanians, in general, in Macedonia actually speak both 
languages, but I go back to the fact again that this is the one 
clearly multiethnic state in the Western Balkans and you can't 
have a 30 to 40 percent of the population being discriminated 
against and expect to have----
    Mr. Rohrabacher. In their language.
    Mrs. Cloyes DioGuardi. It is not just the language. The way 
the language law works is for areas that are predominately 
Albanian would have the right to speak Albanian and use 
Albanian in state institutions and right now they do not.
    Mr. Rohrabacher. And they consider that to be their 
individual right like you would have it in--I am trying to 
relate this to Bosnia, when in Bosnia they at least don't have 
this language division, which I think is----
    Mrs. Cloyes DioGuardi. Right. But also, Chairman 
Rohrabacher, it is not just an issue of language rights. The 
Dayton Accords, the Ohrid Agreement, I should say, in 2001 that 
was negotiated by both the U.S. and the EU with both ethnic 
Albanians and ethnic Macedonians brought the conflict of 2001, 
the armed conflict, to an end, but it also set forth a program, 
a plan. It is not that different, actually, from the initial 
idea behind the Dayton Accords for Bosnia to begin to bring 
about true equality and fairness in the region. That has not 
happened.
    So we have had, you know, 18 years go by and that----
    Mr. Rohrabacher. Quality and fairness, to be fair, is a 
nebulous term and what we have in, I am trying to bring some 
lessons here from one part of the Balkans to the other part of 
the Balkans. That, you know, here, as I say, you have people in 
Bosnia who have basically the same language and they really go 
back a long way. They are basically part of the same cultural 
unit in the world even though they have different religions.
    By the way when I went through the Balkans many years ago I 
went to a, in Croatia I went into this really burned out 
Catholic church. And the first thing I said, I go wow, the 
Muslims really came in here and destroyed this church, didn't 
they? Oh no, this was burned by the Serbs because they are 
Orthodox and these are Roman Catholics. And, you know, I will 
have to say that to Americans this all sounds so, how do you 
put it, it is almost other world-ish. I mean this is not 
something that we recognize at all as where Catholics will be 
killing one another even though because one is Orthodox and one 
is not. But if we are going to be the force, if we are going to 
be the force for bringing about a peaceful world in this area, 
I think we, I guess we have got to understand that.
    Okay, Shirley, go ahead and then I am going to let other 
people comment.
    Mrs. Cloyes DioGuardi. But Chairman, just one thing, 
wouldn't the United States, though, recognize that we don't 
want discrimination against ethnic groups? And when you have a 
majority who is not, a huge majority that is not Slav, not 
ethnic Macedonian, you have that group, you have the 
predominance of one ethnic group making the groups, not just 
Albanians alone, in a second- and third-class position in their 
country. And I think that is something that our democratic 
situation would, you know, fundamentally oppose. In other words 
it is not just a question of people getting an individual 
right.
    Mr. Rohrabacher. Well, it is people being discriminated 
against, et cetera.
    So, yes, sir?
    Mr. Leroux-Martin. Mr. Chairman, if I may, regarding the 
role of Serbia and Kosovo I wanted to bring to your attention 
as well that from the perspective of Kosovo, Kosovo is an 
independent state that has been recognized by more than a 
hundred countries including the United States and most 
countries in the EU. So for Serbia to talk about an exchange of 
territory, what Serbia or Belgrade is doing is they are openly 
talking about carving up and infringing upon the territorial 
integrity and the sovereignty of an independent state. I think 
what is also important to understand is that Serbia and 
Belgrade have been involved in acts of provocation. They have 
sent trains with a lot of religious symbols down to Kosovo to 
create disruption.
    So to categorize the role of Serbia I think as a helpful, 
reasonable contributor, my sense is that we need to take into 
account these actions that Belgrade has contemplated recently. 
And Kosovo has been involved with Belgrade in a number of 
conversations and discussions that were facilitated by the 
European Union trying to get to a number of arrangements to 
facilitate--not to facilitate, but to normalize their 
relationships. So from my perspective, Kosovo has been playing 
a very mature, transparent, and constructive role in trying to 
engage with Serbia on normalizing their relationships.
    Mr. Rohrabacher. I haven't found them very cooperative. I 
have been having conversations with the Serbs and Kosovars over 
the years and I certainly supported Kosovo in their efforts to 
be independent. Since then, personally I can just testify that 
I have found the Kosovars to be much less likely to want to 
cooperate. Now the Serbs on the other hand won't officially 
recognize anything, but they will discuss issues and try to 
come to compromises. At least that is my experience with them.
    Let me offer Brad 2 more minutes, and 2 more minutes, and 
then if Mr. Meeks has not arrived--by the way you wanted to 
jump in, I could tell.
    Mr. Toperich Well, Mr. Chairman.
    Mr. Rohrabacher. And give people a chance, 2 minute, or 
what would you like to say?
    Mr. Toperich Well, I think in respect to the European Union 
I share your concerns, but, however, European Union is a strong 
partner for the Western Balkans at this point in time. And 
regardless what the hypothetical future of Europe may look 
like, I think it is important for us to talk to our European 
allies and have their strong action together with ours in 
fixing the Western Balkans as an unfinished business as soon as 
possible because enhancing the rule of law, enhancing the 
European standards of democracy to the Western Balkans, it's 
not to give geographical background, but that your Balkans are 
the part of Europe. You can fly 45 minutes from Sarajevo to 
Vienna.
    It is an immediate European interest of security and this 
is our allies, our security and national interest that we push 
and Europeans to work with us stronger to put those things 
right in the Western Balkans. That is what I wanted to say. And 
another one if I may on Macedonia, I think we should strongly 
support Zaev government with all being said today, but they are 
working very seriously with Greek counterparts to address the 
name issue problem that Greece blocked for their joining NATO 
and joining European Union.
    We finally have pro-European, pro-Euro-Atlantic government 
in Macedonia that also I think you will be pleased to hear 
thanks to our former Deputy Assistant Secretary of State Hoyt 
Yee who directly intervened with the President Ivanov and other 
to unblock the stalemate there and give a legitimately elected 
government a mandate. So they are really working and finally we 
have some good news from Macedonia. I think we should keep the 
eye on getting this issue with the name of Greece sold so that 
they can move toward the EU and NATO.
    Mr. Rohrabacher. You deserved to get that in the record.
    Yes, sir, go right ahead.
    Mr. Bassuener. Two quick points to follow up, first, on the 
European Union, I definitely think that catalyzing a common 
Western position because we have been atomized. There has been 
a transatlantic divide in our posture and our posture and 
approach toward the region which not just malign actors from 
the outside, but mischievous actors within the Western Balkans 
have taken full advantage of. Catalyzing that position is going 
to take American leadership, I think it will be welcome in many 
corners.
    Second, very quickly on Macedonia that is the only 
relatively good news story in the region, in my view, for the 
past year is the transition last year. There is a lot left to 
do. Sasha has mentioned the name issue regarding NATO and the 
EU. I would add one other element, resolution of the unresolved 
cases of inter-ethnic violence that happened during the 
Gruevski regime, uncovering them in independent investigations 
which the government to its credit has said it wants to do, but 
there has been scant international enthusiasm for that. I think 
that is going to be essential to developing a democratic system 
where there can be nobody who corners the market like Nikola 
Gruevski had. So I just wanted to add that to the record.
    Mr. Rohrabacher. Well, thank you very much. I would give my 
colleagues a couple minutes to make closing remarks.
    Brad, you have 2 minutes for closing.
    Mr. Sherman. One very quick question.
    Mr. Rohrabacher. Go for it.
    Mr. Sherman. Is the Government of Kosovo sending troops to 
Afghanistan or Iraq? How many?
    Mrs. Cloyes DioGuardi. Yes, they have. I don't have the 
current number, Congressman. I am sorry about that.
    Mr. Sherman. Any idea?
    Mrs. Cloyes DioGuardi. But Albania has and----
    Mr. Rohrabacher. So has Albania.
    Mr. Sherman. I know Albania has and Albania has accepted 
the MEK which took--but then there were over 700 individuals 
from Kosovo that joined ISIS?
    Mrs. Cloyes DioGuardi. Yes. But there are more people who 
joined ISIS from England and other Western countries.
    Mr. Sherman. Well, England is an enormously much larger 
country.
    Mrs. Cloyes DioGuardi. I just wanted to point out what 
happened, what the response was. It was a very effective 
response and I think our State Department would concur, 
although that is not my personal----
    Mr. Sherman. Yes. I would simply make the point our State 
Department asks for way too little from those who have 
benefited from American action. We have not asked the community 
of Muslims in Bosnia to send representatives from one end of 
the Muslim world to the other. We have not insisted that the 
Kosovo Government do the same. And when people look back and 
say why did America fail to engage in the world, the fault will 
not just be on those who argued against engagement, but those 
who have argued for engagement and then didn't push our allies 
and beneficiaries for reciprocity. And the idea that asking for 
reciprocity is anti-engagement I think is shortsighted.
    So I would hope, I don't blame Kosovo and the Muslims of 
Bosnia for doing less than I would like to see them do to help 
us. I blame a State Department that hasn't explained that 
whether we are dealing with a Japan that has lived under our 
protection in great wealth for 70 years and didn't have a 
single soldier on the ground in Afghanistan or whether it is 
Kosovo which does not have a major outreach to the Muslim 
community on our behalf from Rabat to Jakarta, those who ask 
little from our allies are setting us up for less involvement 
from the American people. I yield back.
    Mr. Rohrabacher. Go right ahead.
    Mr. Perry. I return to Mr. Bassuener. So I am sure you 
must, you are a smart guy. Troops on the ground in Bosnia 
seems, I don't know, a little politically untenable at the 
moment maybe.
    Mr. Bassuener. Unpalatable, for sure.
    Mr. Perry. So if that is the case, let's just say it is for 
the conversation's sake, things keep on moving toward the 
inevitable date without any resolution, who is going to fill 
the void if we don't and how will that be filled?
    Mr. Bassuener. Well, right now on the docket for 
reinforcement for the current force is a British reserve 
battalion. I definitely think they would have to be part of an 
on the ground in situ reinforcement.
    Mr. Perry. But that will be after the fact?
    Mr. Bassuener. That will be after the fact. That will not, 
I mean they could get it ahead of the curve too. There would 
need to be European Union unanimity on that which is not being 
catalyzed at present. So right now we are skating on very thin 
ice to be, if we are intellectually honest about it.
    Mr. Perry. So that is the friendly actor. I guess I was 
looking for more of the other side of the coin, if you will.
    Mr. Bassuener. Ah. I see where you are going. Look, I would 
not put it past other malign actors to fill voids, particularly 
Russia, particularly in Republika Srpska. However, again I mean 
if there is any place on planet Earth where you a united West, 
which is not united right now, has more leverage, potential 
leverage than the Western Balkans including Bosnia-Herzegovina 
specifically with the mandates that flow from the Dayton 
Agreement, I don't know where it is. So if that void is being 
filled, if that is a vacuum, that is on us.
    Mr. Perry. And I don't disagree. Describe for me if you 
will, if you can, what the filling of the void, whether it is 
Russian Republika Srpska or Turkey elsewhere, et cetera, what 
does it look like physically?
    Mr. Bassuener. Well, physically it could take many forms. 
Obviously there are things, there is Russian training of the 
Republika Srpska Ministry of Interior special forces going on 
about to open a new training center outside Banja Luka. We have 
seen, I mean this is purely speculative, but, you know, we are 
in speculative territory here. We have seen Vladimir Putin take 
bold moves to put us on the back foot. That is what happened in 
Syria as a result of being in the doghouse for Ukraine.
    Would I put it past him flying in paratroopers into Banja 
Luka? No, I wouldn't. Do I think it is imminent? No. Could it 
happen? Yes. We are not controlling the airspace the way we did 
immediately after the war. It is open season. This is a 
territory that we could secure not to predetermine a solution, 
but to prevent really negative solutions or degradation of the 
situation. We are not. That is something that could be dealt 
with in the immediate term and certainly should be before 
October as tensions rise.
    Mr. Perry. Thanks, Mr. Chair. I yield.
    Mr. Rohrabacher. All right. We will just close up with 
this, a couple of observations on my part. And when we talk 
about what is going on there now, we realize at one point when 
I first became a Member of Congress there were people who were 
slaughtering one another. You had Serbs going down into Kosovo 
and just saying we don't care if you want to be independent or 
not, you raise your head up and we are going to cut it off. And 
it became so intense that finally the West, the Western Europe, 
the United States acted. And again there are all kinds of 
mistakes that have been made, but I think that we can be, we 
should understand just the fact that we have been able to play 
that role in stopping that bloodshed and keeping it from 
reigniting all these years is a great accomplishment and it 
speaks well of our motives.
    We have been warned that there are people who don't have 
those motives. They are provocateurs, the Russians and the 
Turks. That they maybe do not have the same motive that has 
motivated us and our European allies to try to get and try to 
calm the situation down. Maybe they aren't trying to calm the 
situation down, I don't know. One thing I do know that we have 
a horrible, if the Muslims of that part of the world right 
there in the Balkans, if they become a radical element on this 
planet, if they are radicalized into the radical Islamic 
movement it will be a disaster for the cause of peace, a 
disaster for Europe, a disaster for the United States.
    And so we have to make sure, whether it is Albania or 
whether it is Kosovo or, you know, or whatever country we are 
talking about, Macedonia or whatever that those Islamic people 
do not feel that they are getting, that they are so unfairly 
treated and the situation is so bad for them that they will be 
susceptible to this radical Islamization that will lead them to 
become terrorists and killers. As we know, that type of dynamic 
exists in this world today. Now I hope that we have learned a 
lot. And it is interesting that Bosnia is the place where we 
can take a look at all of this as sort of in a laboratory 
almost to see how we can work with people, and in Bosnia 
working with people at close proximity who have all of these 
traits where Serbs and Croatians, and yes, and Muslims.
    And so with that said I think we have learned a lot today. 
I think it has been good to have Brad. Thank you for stopping 
in, you know, and we thank you for stopping in as well, Mr. 
Perry. And I thank our witnesses. I am Congressman Dana 
Rohrabacher and I am the chairman of this subcommittee and it 
is now adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
